Nos. 20-512, 20-520
IN THE SUPREME COURT OF THE UNITED STATES
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, et al.,
Respondents.

AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.
SHAWNE ALSTON, et al.,
Respondents.
UNOPPOSED MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX

Pursuant to this Court’s Rule 26.8, petitioners respectfully seek leave to dispense
with the requirement of a joint appendix in these consolidated cases. Respondents agree
that a joint appendix is not necessary.
The opinions of the United States Court of Appeals for the Ninth Circuit and the
United States District Court for the Northern District of California, as well as the
injunction entered by the Northern District of California, are included in the appendices
to the petitions for a writ of certiorari. In petitioners’ view, no other portion of the record
merits special attention that would warrant the preparation and expense of a joint
appendix.

1

For the foregoing reasons, the motion to dispense with the requirement of a joint
appendix should be granted.
Respectfully submitted,

/s/ Seth P. Waxman
SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue N.W.
Washington, D.C. 20006
(202) 663-6000
seth.waxman@wilmerhale.com
Counsel for the NCAA
(filed on behalf of and with the consent
of counsel for all petitioners)
DECEMBER 21, 2020

2

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, certify that on this 21st day
of December, 2020, I caused all parties requiring service in this matter to be served with
a copy of the foregoing by third-party commercial carrier to the addresses below:
LINDA T. COBERLY
WINSTON & STRAWN, LLP
35 West Wacker Drive
Chicago, IL 60601
(312) 558-8768
lcoberly@winston.com
/s/ Seth P. Waxman
SETH P. WAXMAN

